No. 20-409

 

IN THE

Supreme Court of the United States

CHRISTOPHER MICHAEL MARINO AND VALERIE MARGARET
MARINO, PETITIONERS

Vv.

OCWEN LOAN SERVICING, LLC

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,973 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 5, 2021.

Us

Colin Casey Wogan
Wilson-Epes Printing Co., Inc.

  
